DOE/IG-0556




                                NUCLEAR MATERIALS
                               ACCOUNTING SYSTEMS
         AUDIT                MODERNIZATION INITIATIVE
        REPORT




                                       JUNE 2002



 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                   U. S. DEPARTMENT OF ENERGY
                         Washington, DC 20585

                                June 6, 2002



MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Nuclear Materials Accounting
                         Systems Modernization Initiative"

BACKGROUND

The Department of Energy (Department), by its own estimate, spends about $217 million
annually to operate over 50 separate nuclear material tracking systems and to perform other
procedures necessary to maintain accountability over its nuclear material inventory. Because
these systems are not fully integrated, obtaining comprehensive data about nuclear materials is
inefficient. In addition to the many site-level systems, the Department also maintains the
Nuclear Materials Management Safeguards System (NMMSS). Used since 1965, NMMSS
comprises a major component of the Government's nuclear materials accounting system. It
contains high-level, aggregate data on quantity, as well as individual transaction data on
shipments of nuclear materials, both internal and external to the United States. The
Department and the Nuclear Regulatory Commission share the $4 million annual operating
costs for NMMSS. In recognition of the inefficiencies of maintaining numerous tracking
systems, the Department initiated a study in 1999 to examine opportunities to modernize its
nuclear materials management systems.

The Office of Inspector General has undertaken a number of reviews designed to evaluate the
performance of the Department's information technology program, including its nuclear
materials accounting systems. Based on this work, we have concluded, as noted in our
Special Report on Management Challenges at the Department of Energy, (DOE/IG-0538,
December 2001), that information technology is one of the most significant management
challenges facing the Department. Because of the importance of this issue and the potential
for significant savings, we initiated an audit to assess the Department's efforts to redesign or
modernize its nuclear materials accounting information systems, and to determine whether
such efforts were consistent with the Department's Corporate Systems Information
Architecture.

RESULTS OF AUDIT

We found that the Department had not adequately managed its activities to redesign or
modernize its nuclear materials accounting systems. Moreover, planned and ongoing system
development efforts were not fully consistent with the Corporate Systems Information
Architecture. Specifically, the Department:

     •   Despite the expenditure of over $700,000, had no plans to complete an initiative to
         adopt a corporate-level nuclear material accounting solution;
                                               -2-



     •   At a projected cost of over $7.5 million, permitted organizations to continue to
         develop or upgrade site-specific systems that may not be capable of integration; and,

     •   Undertook a major redesign to NMMSS, aimed at modernizing the system and
         improving external reporting, but did not require field sites and program offices to
         provide the site-level funding necessary to ensure success of the effort.

The problems identified during our review occurred because the Department did not take a
unified approach to the nuclear materials management system modernization effort and did
not follow its own software development guidelines. While current modernization efforts will
provide a number of improvements in accounting for nuclear materials, they will not, in our
view, achieve the level of standardization the Department initially envisioned. As a
consequence, the Department may not realize its anticipated potential annual operating
savings of about $66 million.

In conducting this review, we recognized and included in our analysis the fact that certain
Departmental elements have special requirements and that a "one-size-fits-all" approach may
not be practical or appropriate. However, at a minimum, the activities of field and
Headquarters program elements need to be coordinated to avoid duplicative efforts; provide
the greatest integration possible; and, ensure that the Department has appropriate control over
its nuclear material inventory.

MANAGEMENT REACTION

The Office of Security and the Chief Information Officer shared may of our concerns on the
nuclear materials modernization initiatives and they generally agreed with the facts presented
and conclusions reached in the audit report. The National Nuclear Security Administration
did not concur with our finding and recommendations and indicated that it had unique
requirements that may not be served by a corporate level solution.

Attachment

cc: Chief of Staff
    Administrator, National Nuclear Security Administration
    Under Secretary for Energy, Science and Environment
    Director, Office of Management, Budget and Evaluation/Chief Financial Officer
    Chief Information Officer
NUCLEAR MATERIALS ACCOUNTING SYSTEMS MODERNIZATION INITIATIVE



TABLE OF
CONTENTS


                  Overview

                  Introduction and Objective ....................................................................1

                  Conclusions and Observations ...............................................................2


                  Nuclear Materials Accounting Systems Modernization

                  Details of Finding ..................................................................................4

                  Recommendations ..................................................................................7

                  Comments ..............................................................................................8


                  Appendices

                  1. Scope and Methodology ................................................................11

                  2. Prior Reports ..................................................................................12

                  3. Office of Security Comments .......................................................13

                  4. National Nuclear Security Administration Comments ..................14
Overview

INTRODUCTION AND   The Department of Energy (Department) operates over 50 separate
OBJECTIVE          tracking systems to maintain accountability over its nuclear material
                   inventory. Because its accounting systems are not fully integrated,
                   obtaining comprehensive data about nuclear materials is inefficient. In
                   addition to these separate site-level systems, the Department also
                   maintains the Nuclear Materials Management Safeguards System
                   (NMMSS). Used since 1965, NMMSS comprises a major component
                   of the Government's nuclear materials accounting system and contains
                   aggregate high-level data on quantity as well as individual transaction
                   data on shipments of nuclear materials, both internal and external to the
                   United States. The Department and the Nuclear Regulatory
                   Commission share the $4 million annual operating costs for NMMSS
                   and use the system to maintain overall material accountability. In
                   recognition of the inherent inefficiencies of maintaining numerous
                   tracking systems, the Department initiated a comprehensive study in
                   1999 to examine opportunities to modernize its nuclear materials
                   management systems.

                   The primary purpose of the study was to examine methods of
                   improving the quality and timeliness of data and reducing the cost of
                   maintaining accountability over nuclear materials over their lifecycle.
                   This study, referred to as the Nuclear Materials Stewardship Initiative
                   (Stewardship Initiative), was to develop a means of integrating cross-
                   cutting nuclear materials management responsibilities, enable more
                   complete tracking of foreign obligations of special nuclear materials,
                   and decrease manual data requests, while reducing overall costs. As
                   part of the Stewardship Initiative, a separate business process
                   reengineering study was to be performed to identify opportunities for
                   improvement. Based on cost data provided by site representatives, the
                   initial phase of the study calculated that the Department spends over
                   $217 million annually to manage, use, track and report information on
                   the nuclear materials inventory and that savings of as much as
                   $66 million per year might be possible by integrating its material
                   accounting systems.

                   Problems with nuclear materials management systems are long-standing
                   issues within the Department. In December 1994 the General
                   Accounting Office (GAO) issued U.S. International Nuclear Materials
                   Tracking Capabilities Are Limited (GAO/RCED/AIMD-95-5), which
                   criticized the Department for not performing adequate planning before
                   upgrading NMMSS. The Office of Inspector General also reported
                   problems related to the management of nuclear materials information
                   systems in our report on Corporate and Stand-Alone Information



Page 1                                                         Introduction and Objective
                  Systems Development (DOE/IG-0485, September 2000). Specifically,
                  we noted that duplicative and/or redundant computer systems, including
                  nuclear materials tracking systems, existed or were under development
                  at virtually all organizational levels within the Department.

                  The objective of our audit was to assess the Department's efforts to
                  redesign or modernize its nuclear materials accounting information
                  systems and determine whether such efforts were consistent with the
                  Corporate Systems Information Architecture.


CONCLUSIONS AND   The Department had not adequately managed its system redesign and
OBSERVATIONS      modernization activities for nuclear materials accounting systems.
                  Furthermore, planned and ongoing nuclear materials accounting
                  systems development activity was not always consistent with the
                  Corporate Systems Information Architecture. For example, the
                  Department had no plans to complete an initiative to demonstrate the
                  feasibility of a corporate-level nuclear materials accounting solution.
                  Additionally, organizations were allowed to continue to develop or
                  upgrade accounting and production related systems at a projected cost
                  of over $7.5 million. Finally, the Department undertook a major
                  redesign to NMMSS without providing the support or site-level funding
                  necessary to ensure success of the effort.

                  The Clinger-Cohen Act of 1996 and Office of Management and Budget
                  (OMB) implementing guidance require agencies to maximize the value
                  of investments by developing and implementing an information
                  technology architecture that requires a structured, disciplined approach
                  to systems development. Specifically, agencies are to adopt a
                  management approach that minimizes duplication or redundancy and
                  one that requires that costs, needs and alternatives be considered prior
                  to initiating a development effort.

                  The Department did not meet these requirements because it did not take
                  a unified approach to the redesign effort and did not follow its own
                  software development guidelines. While the NMMSS redesign effort
                  will provide a number of improvements in accounting for nuclear
                  materials, it will not achieve the level of standardization envisioned in
                  the Stewardship Initiative despite the expenditure of over $4 million.
                  Because of its fragmented management approach, the Department may
                  not realize significant savings from integrating its nuclear materials
                  accounting systems that were identified by the initial sponsors of the
                  Stewardship Initiative.


Page 2                                                  Conclusions and Observations
         This audit identified issues that management should consider when
         preparing its year-end assurance memorandum on internal controls.




                                                 (Signed)
                                       Office of Inspector General




Page 3                                        Conclusions and Observations
Nuclear Materials Accounting Systems Modernization

Coordinated Approach   Despite the potential for significant savings, the Department had not
Has Not Been Adopted   adopted a coordinated approach to modernizing its nuclear materials
                       accounting information systems. For example, while the Department
                       had initiated an integration effort, it had no plans to complete the effort
                       and had not made a final decision on how best to modernize its systems.
                       In addition, specialized program or site-specific systems that may not
                       be compatible with the finally selected integration alternative are being
                       planned or are currently being developed; a practice that was not
                       consistent with the Corporate Systems Information Architecture. The
                       Department also authorized a major upgrade to NMMSS without
                       providing the support or funding necessary to ensure success of the
                       effort.

                            Nuclear Materials Stewardship Initiative Remains Incomplete

                       The Department had not chosen a final approach for modernizing its
                       nuclear materials accounting systems. Even though the first stage of
                       the Stewardship Initiative was completed in August 2000 and identified
                       the potential for significant savings and many opportunities for
                       improvement, the Department had no plans for completing the
                       initiative. Although certain tasks recommended in the first stage of the
                       Stewardship Initiative had been completed, a number of activities
                       remained incomplete, and no current year funding has been provided
                       for finalizing the Stewardship Initiative. Without a proposed solution
                       and action plan, opportunities to modernize the Department's nuclear
                       materials accounting information systems and realize significant
                       savings are unlikely to be realized.

                                      Continuing Systems Development Activity

                       While some action had been taken to standardize its site-level nuclear
                       materials accounting systems, the lack of a coordinated approach
                       limited the overall effectiveness of the effort. Based on the need to
                       replace aging site-specific systems and standardize practices, the
                       Department developed the Local Area Nuclear Materials Accounting
                       System (LANMAS) at a total cost of about $6 million. This system,
                       which the Deputy Secretary required Headquarters and field elements to
                       consider when upgrading or replacing their materials accounting
                       system, was developed and is maintained by the Savannah River Site.
                       The Deputy Secretary's implementing memorandum stated, "…the use
                       of LANMAS will allow for greater reliability, efficiency and cost
                       savings through increased standardization and use of advanced
                       technologies." While the Department was successful in implementing
                       LANMAS at 10 locations, certain sites reported that they were unable

Page 4                                                                        Details of Finding
         to use the system because of security issues and the lack of support for
         material production facilities. For example, officials with the National
         Nuclear Security Administration (NNSA) and the Los Alamos and
         Sandia National Laboratories told us that they considered using
         LANMAS before launching efforts to update their site-level tracking
         systems but were unable to do so. While the corporate sponsor, the
         Office of Security, indicated that it was willing to perform an analysis
         to fully define implementation issues and develop proposals/plans to
         bridge program gaps, NNSA officials told us that they could not permit
         the analysis because it would have been too labor intensive. Rather
         than taking action to resolve these issues, the Department instead
         permitted sites to continue the development or upgrade of site-specific
         accounting and production related systems that may not be capable of
         integration and will ultimately cost in excess of $7.5 million.

         We also learned that NNSA was planning to develop a Headquarters-
         level system to accumulate component-level data on nuclear materials.
         An NNSA representative told us that such a system was needed to
         better manage materials and would provide type and location
         information essential in emergency response situations. The official
         emphasized that NMMSS could not, and should not, supply component
         level information because of "need-to-know" issues. The planned
         application would extract data from various site-level systems for
         analysis, and eliminate delays involved with reconciling the annual
         Nuclear Material Inventory Assessment with NMMSS. At present, this
         process is performed using manual methods and takes a number of
         months to complete. Planning remains in the conceptual stage, no
         design work has taken place, and NNSA has yet to examine
         requirements of the Department's software engineering process.

                                   NMMSS Redesign

         Lack of progress of the Department's integration effort may limit the
         overall effectiveness of the NMMSS system redesign. The initial
         decision to redesign NMMSS was based primarily on the need to
         migrate the system to a modern platform and to improve certain aspects
         of external reporting. While the Department permitted the redesign
         effort to continue and tasked the designers with standardizing
         measurement and reporting methods, it did not take action to ensure
         success of the effort. Specifically, sites and program offices were not
         required to cooperate with the effort and specific funding necessary for
         site-level system modifications was not provided.




Page 5                                                       Details of Finding
                           Even though the NMMSS redesign team sought to enhance data quality
                           by standardizing site-level reporting, its efforts have not been
                           completely effective. To its credit, the redesign team performed a
                           number of site-level outreach activities regarding benefits available
                           from standardization. The team also took a number of actions to ensure
                           that the development effort maintained compatibility with LANMAS
                           and maintained coordination with the Chief Information Officer (CIO).
                           Despite these efforts, many sites would not support the move to
                           standardized reporting and did not have the resources available to
                           populate necessary data fields. Absent a selected alternative and a clear
                           mandate from the Department, certain sites decided against modifying
                           their local processes because they did not perceive a benefit at the site
                           level. Because of these problems, the redesign will not achieve the
                           level of standardization envisioned in the Stewardship Initiative for
                           improved nuclear materials management despite the expenditure of
                           over $4 million.

System Development         The Clinger-Cohen Act of 1996 (Clinger-Cohen) and OMB
Requirements               implementing guidance require agencies to maximize the value of
                           investments by developing and implementing an information
                           technology architecture that requires a structured, disciplined approach
                           to systems development. Specifically, agencies are to adopt a
                           management approach that minimizes duplication or redundancy, and
                           one that requires that costs, needs and alternatives be considered prior
                           to initiating a development effort. Clinger-Cohen requires that new or
                           redesigned information systems be consistent with the agency's
                           Corporate Systems Information Architecture. To ensure consistency,
                           the CIO, as well as GAO guidance, require that a formal lifecycle
                           review be completed prior to development of information system
                           resources. This practice minimizes the potential for costly system
                           redesigns when essential features are omitted from the original design.

Software Engineering       The Department did not meet these requirements because it did not take
Process and                a unified approach to the redesign effort and did not consistently follow
Implementation Standards   its own software development guidelines. Because of reorganizations,
                           the Stewardship Initiative no longer has a corporate or programmatic
                           sponsor to oversee completion efforts, select a final alternative, or
                           mandate compliance by field and program offices. Government and
                           commercial best practices consistently demonstrate that information
                           technology investments championed by a corporate sponsor have the
                           greatest chance of success. In addition, the CIO did not provide
                           adequate oversight, monitoring, and control of the Stewardship
                           Initiative and did not alert senior management when the Stewardship
                           Initiative lost its sponsor.

Page 6                                                                          Details of Finding
                            In addition, while the Department has a number of guides and
                            procedures in place, it had permitted its sole directive governing
                            information technology management to expire. Although the
                            expiration of this Order did not directly impact the initial phase of the
                            Stewardship Initiative, it could place final completion of the project in
                            jeopardy. Specifically, field and program offices relied on DOE
                            Order 200.1, Information Management Program, to provide guidance
                            to ensure that development activities were managed in a manner that
                            supported strategic and operational plans of the Department. However,
                            this Order was allowed to expire in September 2000 and no new
                            guidance has been issued. The lack of up-to-date standards increases
                            the risk of information resources being developed that are not
                            consistent with the Department's architecture.

Significant Savings         Without corrections of the identified problems, the Department is
Opportunities May Be Lost   unlikely to realize the potential savings identified by the initial sponsors
                            of the Stewardship Initiative. Without development of a coordinated
                            approach, the Department's goal of integrating nuclear materials
                            accounting across the complex has little chance of success. In addition,
                            it will continue to incur costs for development of site and program
                            specific systems that may not be compatible with the overall integration
                            effort. These development costs are expected to exceed $7.5 million
                            for two of the national laboratories identified during our audit.

                            Furthermore, the Department will ultimately spend over $4 million for
                            an NMMSS redesign without achieving the level of standardization
                            envisioned in the Stewardship Initiative.


RECOMMENDATIONS             To facilitate modernization of the Department's nuclear materials
                            accounting systems, we recommend that the Administrator, National
                            Nuclear Security Administration and the Office of Security, in
                            coordination with the Chief Information Officer:

                                 1. Develop a coordinated approach and select a final alternative
                                    for modernizing nuclear materials accounting information
                                    systems that is consistent with the Department's Corporate
                                    Systems Information Architecture as well as security and
                                    program specific operational needs; and,

                                 2. Impose a moratorium on development efforts to minimize
                                    redundancy during the process of developing and selecting a
                                    modernization alternative. Unless necessary to address
                                    emergencies, development should be limited to maintaining
                                    site-level systems and other nuclear materials accounting
                                    information systems in a steady state.

Page 7                                                                           Recommendations
             We also recommend that the Department's CIO update the directive
             governing information management systems development.


             The Office of Security generally agreed with the facts presented and
MANAGEMENT
             conclusions reached. Although the CIO did not provide specific written
REACTION
             comments, the CIO also indicated general agreement with the facts and
             conclusions. The CIO and Office of Security shared many of the same
             concerns on the nuclear materials modernization initiatives that we
             expressed in this report. Specifically, the Office of Security cited the
             reluctance on the part of many offices in standardizing and adopting a
             more corporate approach to improve nuclear materials accounting. The
             Office of Security's written comments are included, in their entirety as
             Appendix 3.

             NNSA did not concur with our finding and recommendations. NNSA
             management stated that it would evaluate the programmatic
             requirements for each site and then make a decision about whether
             using a common system would benefit NNSA.

             While NNSA did not concur with our recommendation to develop a
             coordinated approach to selecting a final alternative for modernizing
             nuclear materials accounting systems, it stated that it would, at a
             minimum, evaluate a "path forward" to interface with the Department's
             corporate system, such as common interface and/or data-exchange
             standards. Furthermore, NNSA stated that it was more important to
             establish and maintain a system that provides accurate materials
             information for each site than to implement initiatives to meet an
             information architecture.

             Additionally, NNSA did not concur with our recommendation to
             impose a moratorium on development efforts while selecting a
             corporate level alternative. NNSA believed that the recommendation
             was not appropriate for its operations because limiting improvements in
             existing systems to emergencies would not allow sites to adapt to
             changing program requirements or achieve other efficiencies.

             NNSA was also concerned with the validity of the estimated operating
             costs and potential savings discussed in the report and questioned the
             validity of comparisons between the Los Alamos development effort
             and LANMAS. NNSA stated that the Los Alamos development effort
             that will cost about $7 million encompasses a significantly greater
             effort for the overall information system at Los Alamos than just the
             nuclear material accountability system.

Page 8                                                          Recommendations
                                                                   and Comments
                   Finally, NNSA pointed out that because there are currently no plans or
                   set requirements for the overall integration effort, it is not clear that
                   even the corporate site-level system (LANMAS) would be consistent
                   with the integration effort.

                   NNSA's general comments are included as Appendix 4. NNSA also
                   provided technical comments that are addressed in the body of this
                   report.


AUDITOR COMMENTS   While we understand NNSA's position, a coordinated approach among
                   the Department's disparate group of users of nuclear materials
                   accounting information is a prerequisite to ensuring that efficiencies are
                   realized and the effectiveness of investments in information technology
                   design are maximized. For example, our recommendation for a
                   coordinated approach that is consistent with the corporate architecture
                   is not mutually exclusive of NNSA's desire to provide accurate site
                   level information. Rather, the recommendation seeks to establish a
                   coordinated approach to determine how the Department's needs and
                   programmatic/site needs can be met most cost effectively. In fact, our
                   recommendation is consistent with OMB guidance, which has
                   encouraged Federal agencies to maximize their IT investments by
                   avoiding duplicative development efforts by leveraging similar
                   information needs in a coordinated approach.

                   Furthermore, our recommendation for a moratorium recognizes the
                   need for development efforts to maintain site-level systems in a steady
                   state. We do not envision a situation whereby programming changes to
                   meet envolving requirements would not be permitted. Rather, we
                   believe that a moratorium should be imposed on large-scale
                   modernization efforts until a decision is reached on a final system that
                   is consistent with the corporate architecture.

                   Regarding NNSA's doubts about costs and savings discussed in this
                   report, we believe that the information is the best available. The
                   Department employed a diverse team of over 40 subject matter experts
                   from all areas of nuclear materials management during the initial phase
                   of the Stewardship Initiative to identify costs and opportunities for
                   improvements. Furthermore, during our audit, we performed limited
                   validation procedures on these estimates by interviewing a number of
                   headquarters and field site representatives, including NNSA officials,
                   who indicated that the information contained in the study was the best
                   available. At a minimum, we believe that the study presents sufficient
                   information to prompt the Department and its constituent programs to
                   initiate action to develop a coordinated approach towards modernizing
                   its nuclear materials management information systems.
Page 9                                                                           Comments
          Finally, regarding NNSA's concerns over the validity of comparisons
          between the Los Alamos development effort and LANMAS, we agree
          that the Los Alamos development effort exceeds the current capabilities
          of the corporate site-level system. However, it is unclear how much of
          the functionality of the new development effort could have been met by
          the corporate site-level system because its potential was never fully
          investigated. We also believe that a coordinated approach to
          implementing site-level systems would minimize the difficulties
          involved in eventually developing a corporate level integrated
          information system.




Page 10                                                              Comments
Appendix 1

SCOPE         The audit was performed between October 2001, and February 2002, at
              Department Headquarters in Washington, DC; the Lawrence Livermore
              National Laboratory in Livermore, CA; the Los Alamos National
              Laboratory in Los Alamos, NM; and the Sandia National Laboratory and
              Albuquerque Operations Office in Albuquerque, NM.


METHODOLOGY   To accomplish our objectives, we:

                   •   Reviewed applicable laws and regulations pertaining to the use
                       and acquisition of information technology. We also reviewed
                       reports by our office and the General Accounting Office;

                   •   Reviewed the Government Performance and Results Act of 1993
                       and determined if performance plans and measures had been
                       established;

                   •   Reviewed numerous documents related to the Stewardship
                       Initiative and NMMSS. During our audit, we performed limited
                       validation procedures on estimates contained in the Stewardship
                       Initiative by interviewing a number of Headquarters and field site
                       representatives, including NNSA officials; and,

                   •   Held discussions with program officials and personnel from the
                       Offices of the CIO and Plutonium, Uranium, and Special
                       Materials Inventory. We also held discussions with various
                       officials and staff at the operations offices and laboratories we
                       visited.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included tests
              of internal controls and compliance with laws and regulations to the extent
              necessary to satisfy the audit objectives. Accordingly, we assessed
              internal controls regarding the development and implementation of wide
              area networks. Because our review was limited, it would not necessarily
              have disclosed all internal control deficiencies that may have existed at the
              time of our audit. We did not rely on computer-processed data to
              accomplish our audit objectives.

              We held an exit conference with Headquarters officials on May 16, 2002.




Page 11                                                        Scope and Methodology
Appendix 2

                                            PRIOR REPORTS

    OFFICE OF INSPECTOR GENERAL REPORTS

      •   Accounting for Government-Owned Nuclear Materials Provided to Non-Department
          Domestic Facilities, (DOE/IG-0529, October 26, 2001). The Department could not fully
          account for nuclear materials loaned or leased to domestic licensees. According to NMMSS
          records, substantial amounts of nuclear materials were located at two facilities that no longer
          existed, and several licensee facilities carried negative material balances. These problems
          occurred and persisted because the Department did not provide adequate oversight of the
          system and effectively coordinate with the Nuclear Regulatory Commission.

      •   The Department of Energy's Implementation of the Clinger-Cohen Act of 1996, (DOE/IG-
          0507, June 2001). The Department had not been completely successful in implementing the
          requirements of the Clinger-Cohen Act of 1996. Specifically, the Department had not
          closely monitored policy implementation efforts that resulted in inconsistent adherence to
          policies. The Department's decentralized approach to information technology management
          and the organizational placement of the CIO caused these weaknesses. Also, the CIO lacked
          the authority necessary to ensure that policy implementation is consistent across the
          complex.

      •   Corporate and Stand-Alone Information Systems Development, (DOE/IG-0485, September
          2000). Duplicative and/or redundant computer systems exist or are under development at
          virtually all organizational levels within the Department. Despite efforts to implement
          several corporate-level applications, many organizations continued to invest in custom or
          site-specific development efforts that duplicated corporate functionality. The Department
          has been unable to control development and eliminate duplicative systems because it has not
          developed and implemented an application software investment strategy. As a result, the
          Department has spent at least $38 million on duplicative information systems.

      •   Special Report on Management Challenges at the Department of Energy, (DOE/IG-0538,
          December 2001). Information technology management remains one of the most serious
          challenges facing the Department. Although the Department has recently taken a number of
          actions to improve overall management, opportunities for additional improvements in
          information technology management and cyber security exist.

    GENERAL ACCOUNTING OFFICE REPORTS

      •   U.S. International Nuclear Material Tracking Capabilities are Limited, (GAO/RCED/AIMD
          95-5, December 1994). The Department did not follow sound system development practices
          in the upgrade of NMMSS from a mainframe to a PC based platform. Because the
          Department was only duplicating the functionality of the legacy system, it was also
          duplicating its limitations. In addition, user needs were not adequately defined, and system
          alternatives were not explored prior to the upgrade commencing.

Page 12                                                                                      Prior Reports
Appendix 3
             OFFICE OF SECURITY COMMENTS




Page 13                                    Office of Security
                                                  Comments
Appendix 4

          NATIONAL NUCLEAR SECURITY ADMINISTRATION COMMENTS




Page 14                                           National Nuclear Security
                                                  Administration Comments
Page 15   National Nuclear Security
          Administration Comments
Page 16   National Nuclear Security
          Administration Comments
Page 17   National Nuclear Security
          Administration Comments
                                                                           IG Report No. DOE/IG-0556

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
    friendly and cost effective as possible. Therefore, this report will be available
       electronically through the Internet at the following alternative addresses:


             Department of Energy Office of Inspector General Home Page
                               http://www.ig.doe.gov


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
